No.

IN THE
SUPREME COURT OF THE UNITED STATES

PRISCILLA ANN ELLIS
— PETITIONER
(Your Name)

VS.
UNITED STATES OF AMERICA

— RESPONDENT(S)

PROOF OF SERVICE

I,
(/t^- 7 A

PrisciHa Ann Ellis—^------------- do swear or declare that on this date,
J~L/
ai Squired %y Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States - Room 5616 Dept of Justice
950 Pennsylvania Avenue, N.W , Washington, D.C 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed ofP^~^

' /J -

(Signature)

fr/l-Csr

il

CERTIFICATE OF SERVICE

MAILED TO THE UNITED STATES ATTORNEY AND THE UNITED STATES
SUPREME COURT FROM THE LEGAL MAIL SYSTEM AT FMC-CARSWELL
ADMIN UNIT ON

3-16-2020

Ellis
03260-180
Federal Medical Center Carswell
Admin Unit
P.O. Box 27137
Ft. Worth, Texas 76127

J

Final Page of Filings

^ " (j)

